ATTORNEY GENERAL OF MISSOURI
ERIC S. SCHMITT
ATTORNEY GENERAL

JEFFERSON CITY

P.O. BOX 899
(573) 751-3321

65102

December 11, 2020
Scott S. Harris, Clerk
United States Courthouse
1 First Street, N.E.
Washington, D.C. 20543
Re:

Vincent McFadden v. State of Missouri
No. 20-6383

Dear Mr. Harris:
I am writing this letter to request an extension of time in which to file the brief in opposition
to the petition for writ of certiorari in Vincent McFadden v. State of Missouri, No. 20-6383. The
brief in opposition is due by December 21, 2020. Mr. McFadden’s counsel of record, Mr.
Laurence E. Komp, does not oppose this request. I respectfully request an extension of thirty days,
until January 20, 2021, to file the brief in opposition.
I appreciate your attention to this matter.
Sincerely,
ERIC S. SCHMITT
Attorney General
/s/ Shaun J Mackelprang
SHAUN J MACKELPRANG
Assistant Attorney General
cc: Laurence E. Komp, Attorney for Petitioner

www.ago.mo.gov

